No. 21ALPINE SECURITIES CORPORATION,
Petitioner,
v.
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION,
Respondent.
AMENDED CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
one copy of the Petition for a Writ of Certiorari was
hand-delivered by courier to the U.S. Supreme Court
on July 19, 2021. Additionally, a copy of the petition
was sent to counsel for the Respondent by United
States Postal Service First Class Mail, as well as by
transmitting a digital copy via electronic mail.
John Coates, General Counsel
Daniel Staroselsky, Senior Litigation Counsel
Rachel M. McKenzie, Senior Counsel
U.S. Securities and Exchange Commission
Office of the General Counsel
100 F Street, N.E.
Washington, D.C. 20549-9040
(202) 551-5774
(202) 551-6598
StaroselskyD@sec.gov
Mckenzier@sec.gov
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice

950 Pennsylvania Ave., N. W., Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
/s/ Robert M. Loeb
Counsel of Record

